HHS/OIG, Audit -"Review of Grants Issued to the National Latina/o Lesbian, Gay,
Bisexual and Transgender Organization,"(A-03-05-00351)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Grants Issued to the National Latina/o
Lesbian, Gay, Bisexual and Transgender Organization," (A-03-05-00351)
June 29, 2006
Complete
Text of Report is available in PDF format (354 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine whether before declaring bankruptcy, the National
Latina/o Lesbian, Gay, Bisexual and Transgender Organization (LLEGÓ) used Centers for Disease
Control and Prevention (CDC) grant funds in accordance with Federal guidelines for allowability.  Our
analysis of available documentation showed that LLEGÓ incurred $703,181 in unallowable costs:  $379,022
in unallowable expenses and $324,159 in expenses that occurred in a prior cooperative agreement
period.  This was contrary to Office of Management and Budget guidance, which states
that Federal funds be used only for the purpose for which they were given.  We recommended
that CDC follow-up with the U.S. Bankruptcy Court as to the repayment of cooperative agreement
funds from the LLEGÓ bankruptcy as allowed by 11 U.S.C. chapter 5.